APPENDIX A - JUDGMENT
IN THE 13TH JUDICIAL CIRCUIT COURT OF
BOONE COUNTY, MISSOURI

THE CURATORS OF THE
UNIVERSITY OF MISSOURI,
Plaintiff,
v.
GALEN J. SUPPES and HOMELAND
TECHNOLOGIES, LLC,
Defendants.

)
)
)

) Case No.
) -09-BA
) CV02314
)
)

GALEN J. SUPPES and HOMELAND )
)
TECHNOLOGIES, LLC,
Plaintiffs, )
)
v.
)
MIKE NICHOLS,
Defendant. )
JUDGMENT
This consolidated action came before the Court
and a Jury, commencing on August 25, 2017 and
continuing on all regular days of court through
September 6, 2017. The parties appeared in person
and by their respective attorneys.
Whereas, before the trial of this matter,
Defendant Suppes dismissed with prejudice his
claims against third-party Defendants Wayne
McDaniel and Scott Uhlmann;

A- 1

Whereas, before the commencement of evidence in
this case, Plaintiff University dismissed with
prejudice all claims against Defendant Homeland
Technologies, LLC;
Whereas, before resting his presentation of
evidence, Defendant Suppes dismissed with
prejudice his counterclaims against Plaintiff
University!
Whereas, before resting his presentation of
evidence, Defendant Suppes dismissed with
prejudice his claim against third-party Defendant
Mike Nichols;
Whereas, the remaining issues have been duly
tried and the Jury, on September 6, 2017, rendered
its verdicts!
Whereas, on the claim of Plaintiff The Curators of
the University of Missouri (hereinafter “University”),
for breach of contract against Defendant Galen J.
Suppes, the Jury found in favor of Plaintiff
University. The Jury found the damages on such
claim of Plaintiff University to be THREE
HUNDRED THOUSAND DOLLARS ($300,000.00);
and
Whereas, on the claim of Plaintiff University for
Breach of the Duty of Loyalty against Defendant
Suppes, the Jury found in favor of Plaintiff
University. The Jury found the damages on such
Claim of Plaintiff University to be THREE
HUNDRED THOUSAND DOLLARS ($300,000.00).
WHEREFORE, IT IS HEREBY ORDERED,
ADJUDGED AND DECREED that Judgment be and
is hereby entered in favor of Plaintiff University and
against Defendant Suppes and that Plaintiff
University have and recover of Defendant Suppes, in

A-2

conformity with the jury’s verdicts, SIX HUNDRED
THOUSAND DOLLARS ($600,000.00).
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that the portion of the monetary
judgment related to the breach of contract claim
shall, in accordance with the provisions of Section
408.040, RSMo, shall earn interest at the rate of nine
percent (9%) per annum from the date judgment is
entered by the trial court until satisfied; and,
further, that that portion of the monetary judgment
related to the breach of the duty of loyalty claim
shall, in accordance with the provisions of Section
408.040, RSMo, shall earn interest at the Federal
Funds Rate, as established by the Federal Reserve
Board, which is currently one and one-fourth percent
(l Vi%) per annum, plus five percent (5%) per annum,
for a total of six and one-fourth percent (6 14%) per
annum from the date judgment is entered by the
trial court.
Whereas, the Jury voted unanimously in favor of
Plaintiff University on Special Instruction No. 1,
finding that Section 100.020 of the Collected Rules
and Regulations of the University of Missouri
(hereinafter “Collected Rules and Regulations”)
requires Defendant Suppes to disclose and assign to
Plaintiff University inventions Defendant Suppes
developed in the general course of his employment
with Plaintiff by Plaintiff University.
WHEREFORE, IT IS FURTHER ORDERED,
ADJUDGED AND DECREED that, within twenty
(20) days after this Judgment becomes final for
purposes of appeal, Defendant Suppes shalP
1. Provide to Plaintiff University a sworn
statement containing a full and complete accounting
of all inventions made by him between August 1,
A-3

2001 and the end of his employment by Plaintiff
University and providing a description of each of the
inventions with sufficient details, including a listing
of corresponding patents (to include provisional
patent applications, non-provisional patent
applications and issued patents—both foreign and
domestic), to permit Plaintiff University to determine
whether or not it desires to assert its rightful
ownership and control over the inventions!
2. Provide to Plaintiff University an accounting
of all revenue and other consideration received by
Defendant Suppes, including but not limited to
license/option fees, milestone fees, royalty payments
and sales revenues, from the licensing, assignment,
sale or other transfer of the inventions contained in
the sworn statement described in Paragraph 1 above
other than those inventions for which Plaintiff
University previously has provided to Defendant
Suppes a written waiver or a written assignment or
reassignment, and said accounting shall contain a
sufficient description of the amounts, the dates of
receipt and the source of all such revenue and other
consideration, to permit Plaintiff University to
independently verify the accuracy of such accounting!
3. Pay over to Plaintiff University all revenue
and other consideration received by Defendant
Suppes, including but not limited to license/option
fees, milestone fees, royalty payments and sales
revenues, from the licensing, assignment, sale or
other transfer of the inventions contained in the
sworn statement described in Paragraph 1 above,
other than for such inventions for which Plaintiff
University previously has provided to Defendant
Suppes a written waiver or a written assignment or
reassignment! and
A-4

4. Execute the Assignment, Page 1 and Page 2 of
which shall be unaltered and unmodified, which was
attached to the letter from Plaintiff University’s
attorney to Galen J. Suppes, dated November 10,
2008, which was admitted into evidence as part of
Plaintiffs Exhibit No. 351a, assigning to Plaintiff
University all right, title and interest in the
inventions related to the glycerol to propylene glycol
technologies contained on Exhibit A of Plaintiffs
Exhibit No .351a. Plaintiffs Exhibit 351a is attached
hereto as Exhibit 1 and incorporated herein by
reference.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that any and all claims or prayers for
relief made by any party in this case not otherwise
previously resolved by the court or granted in this
Judgment are hereby denied.
IT IS FURTHER ORDERED, ADJUDGED AND
DECREED that all costs in this action are taxed
against Defendant Suppes.
SO ORDERED:
Gary W. Lynch,
Judge
Date: October 12,
2017

A-5

APPENDIX B - OPINION
In the
Missouri Court of Appeals
Western District
THE CURATORS OF THE
)
UNIVERSITY OF MISSOURI, )
) WD81278
Respondent, )
) OPINION FILED:
January 8,
v.
)
2019
GALEN J. SUPPES,
)
Appellant.
)
Appeal from the Circuit Court of Boone
County, Missouri
The Honorable Gary W. Lynch, Judge
Before Division Three: Gary D. Witt, Presiding
Judge, Cynthia L. Martin, Judge and Anthony Rex
Gabbert, Judge
Appellant Galen Suppes ("Suppes") appeals the
judgment of the Circuit Court of Boone County,
Missouri, which, following a jury trial, found him
liable to The Curators of the University of Missouri
("University") for breach of contract and breach of
loyalty claims. The jury awarded the University
$300,000.00 on each claim. On appeal, Suppes
alleges nine points of error. We affirm.

B- 1

Factual Background1
The University hired Suppes as an associate
professor in the College of Engineering's Department
of Chemical Engineering in the fall of 2001. As a
condition of his employment, the University required
Suppes to sign an Appointment Notification
document stating that he accepted his position "with
the understanding that it is subject to all rules,
orders and regulations of the Board of Curators." The
University's governing rules are called the Collected
Rules and Regulations ("CRRs") and Suppes agrees
he was bound by the CRRs. The CRRs include
"Patent and Plant Variety Regulations" which states,
in relevant part:
The University, as the employer and as the
representative of the people of the state, shall
have the ownership and control of any
Invention or Plant Variety developed in the
course of the employee's service to the
University.
There are various limitations to this requirement
but, in order to allow the University to exercise its
rights, the regulations require that all employees
disclose all inventions to the University regardless of
whether the employee believes that the invention is
exempt from University ownership. The University
may then exercise its rights of ownership and
request assignment of the invention to the
University or, if the University chooses, it may waive
its rights to the invention. The disclosure form which
1 On appeal from a jury-tried case, we view the facts in the light
most favorable to the jury's verdict. Dubinsky v. U.S. Elevator
Corp., 22 S.W.3d 747, 749 (Mo. App. E.D. 2000).
B- 2

is to be submitted with notification includes an
assignment clause. Only if the University affirmative
waives its rights to an invention may an employee
seek a patent for the invention independently.
Between September 2001 and January 2008,
Suppes filed at least 35 patent applications on his
own or through an outside attorney who did not
represent the University. Most, if not all, of these
patent applications were for inventions that had not
been disclosed or assigned to the University when
the patent application was filed. To the extent
Suppes did disclose some of his inventions, he often
modified the University's disclosure form to modify
or remove the assignment language. Eventually, the
University became aware of the modifications and
asked him to stop. However, Suppes continued to
disclose his inventions on modified forms altering or
deleting the assignment language. The University
claims, generally, that Suppes's failure to notify the
University about inventions and submitting
notifications without proper assignment prevented
the University from capitalizing on these inventions.
Without clear assignment from Suppes the
University
could
not justify
investing
in
commercialization of the inventions.
The current suit stems from Suppes's failure to
properly assign ownership of a technology to
transform glycerol, a byproduct of biodiesel
production, into propylene glycol ("PG"),2a valuable
chemical compound used to make antifreeze.
2 Suppes's work surrounding the transformation of glycerol into
PG lead to several different patents and related technologies.
For ease of discussion, the entirety of the work and patents
related to PG is referred to as PG, as is done by the parties.
B- 3

From 2003 to 2006, Suppes's PG research was
supported by a research funding agreement between
the
University and the Missouri Soybean
Merchandising Counsel, a subsidiary of the Missouri
Soybean Association ("Missouri Soybean").3 Under
the funding agreement, the University would own
any inventions resulting from Suppes's research, but
Missouri Soybean had an option to license those
inventions from the University, with 25 percent of
the net revenues returning to the University and an
additional 8.33 percent going directly to Suppes.
Suppes established a limited liability company,4
Renewable Alternatives ("RA"), to conduct some of
his research. RA leased an office from the University
but failed to lease or pay for any laboratory space
from the University. Instead, all research was done
in the lab provided by the University to Suppes for
his work with for the University. Pursuant to an
agreement between the University and RA, any
inventions developed by both University employees
and RA employees would be jointly owned, and RA
was given first option to lease these inventions.
Suppes developed a number of inventions related
to PG. He was enthusiastic about the commercial
potential for these inventions, predicting it would
generate millions of dollars in royalties each year
from production of PG, and millions more from the
3 Missouri Soybean has multiple subsidiary organizations that
played a role in this case. For ease of discussion, we refer to
Missouri Soybean and all its subsidiaries as Missouri Soybean.
4 Establishing a company under which research would be
conducted was a common practice for professors because in
order to be eligible for certain federal grants, the research
needed to be conducted by a small business with at least one
employee, other than the faculty member.
B- 4

production of another chemical acetol. Suppes
represented to Missouri Soybean that he owned the
nonprovisional rights to the PG technology and
worked with Missouri Soybean to obtain a patent for
the technology. On March 15, 2005, RA then entered
into a licensing agreement with a Missouri Soybean
subsidiary granting to it exclusive license to the PG
technology. RA represented that it was the sole
owner of the PG technology. In exchange for the
license, the Missouri Soybean subsidiary agreed to
pay RA royalties at a rate of 33 percent for two years
and twenty percent thereafter. In turn, on July 15,
2005, the Missouri Soybean subsidiary entered into a
Senergy
with
agreement
sub-license
Chemicals ("Senergy") to manufacture PG using
Suppes's technology. The University was not made
aware of these agreements until October 2005. The
University then attempted to negotiate a three-way
agreement between Suppes, the University, and
Missouri Soybean that recognized the University's
ownership of PG.
January 14, 2007, Suppes sent an email to the
University and others stating the he would not sign
any documents relating to PG until a three-way
agreement was completed. Around the same time,
Missouri Soybean's lawyer contacted Suppes with a
final notice that he needed to sign certain documents
or patent rights related to the PG technology would
be lost. The deadline passed without signature
resulting in the abandonment of one patent
application and the loss of foreign patent protection
for another.
Suppes eventually executed assignments for the
PG technology in June 2007, after the University
Patent Committee determined the technology had
B- 5

been created within the scope of Suppes's
employment and belonged to the University. Suppes
still, however, refused to cooperate with the
University further until a licensing agreement was
reached with Missouri Soybean. The University and
Missouri Soybean finalized an agreement regarding
PG in September 2007.
In March 2008, Senergy signed a memorandum of
understanding with SK Chemical, a South Korean
company, for the manufacture of PG. However, once
SK Chemical discovered that one of the patent
applications for the PG had been abandoned in 2007,
SK Chemical decided not to enter into a contract
with Senergy. Senergy never produced PG on a
commercial scale.
The University brought suit against Suppes in
April 2009. Three claims were tried and submitted to
the jury: breach of contract, tortious interference,
and breach of the duty of loyalty. The University also
sought equitable relief, but these claims were decided
by the court following trial. The jury returned
verdicts for the University on the breach of contract
and breach of loyalty claims, awarding $300,000 on
each claim. It found for Suppes on the tortious
interference claim. After trial, the court found for the
University on its equitable claims, ordering Suppes
to execute an assignment to the University for any
inventions related to the PG technology. The court
entered final judgment on October 12, 2017
("Judgment").
This appeal followed.
Discussion
I.

B- 6

Suppes's first point on appeal alleges that the
circuit court erred in ordering him to assign U.S.
Patent No. 6,574,971 (’"971 Patent") to the
University because such relief was not requested in
the Petition. Suppes also raises in his Point Relied
On that the Assignment includes patent application
No. 09/945, 682 ("'682 Application") which the trial
court had previously dismissed allegations regarding
this patent from the proceedings.
"The circuit court is vested with considerable
discretion in ruling on a motion to amend judgment,
and the court of appeals will not reverse a circuit
court's decision on a motion to amend judgment
unless there is an abuse of discretion." Gill
Constr.,Inc. v. 18th & Vine Auth., 157 S.W.3d 699,
711-12 (Mo. App. W.D. 2004).
The relevant portion of the Judgment orders
Suppes to:
Execute the Assignment, Page 1 and Page 2 of
which shall be unaltered and unmodified,
which was attached to the letter from
Plaintiffs University's attorney to Galen J.
Suppes, dated November 10, 2008, which was
admitted into evidence as part of Plaintiffs
Exhibit No. 351a, assigning to Plaintiff
University all right, title and interest in the
inventions related to the glycerol to propylene
glycol technologies contained on Exhibit A of
Plaintiffs Exhibit No. 351a. Plaintiffs Exhibit
351a is attached hereto as Exhibit 1 and
incorporated herein by reference.
The University concedes that the intent of the
Judgment was for Suppes to only assign "all right,
title and interest in the inventions related to the
glycerol to propylene glycol technologies contained on
B- 7

Exhibit A" attached to the Assignment, (emphasis
added). The University argues that Suppes's first
point on appeal is without merit because, the '971
Patent applied to "phase change materials" and not
to the "glycerol to propylene glycol technologies,"
therefore the Judgment by its terms did not require
the assignment of the technology in the '971 Patent.
At oral argument, the University contended that the
language of the Judgment expressly barring
alteration of pages one and two of the Assignment
implicitly then allows alternation of Exhibit A which
is on pages three and four of the Assignment. Thus,
it is the position of the University that Suppes is free
to exclude the '971 Patent and '682 Application from
the list of items being assigned pursuant to Exhibit A
prior to execution of the Assignment.
We accept the University's interpretation and
thus affirm the Judgment as to the allegations of
error raised by Suppes in Point Relied on I with the
express understanding that Patent No. 6,574,971
and Patent Application No. 09/945,682 will be
deleted from the list of items being assigned
pursuant to Exhibit A. As required by the Judgment,
at the time the Assignment is executed, Exhibit A
should properly reflect the assignment of all "the
inventions related to the glycerol to propylene glycol
technologies."
In light of the above position of the University, we
deny Point Relied on I.
II.
Suppes's second point on appeal alleges that the
circuit court erred in denying Suppes's Motion for a
New Trial because the Judgment erroneously
assessed certain costs to Suppes.

B- 8

"Awarding costs and expenses is within the sound
discretion of the trial court and should not be
reversed absent a showing that the trial court abused
its discretion." Trimble v.Pracna,\Ql S.W.3d 706,
716 (Mo. banc 2005). A trial court abuses its
discretion to award costs when the judgment "was
against the logic of the circumstances and so
arbitrary and unreasonable as to shock one's sense of
justice."Sasnett v. Jons, 400 S.W.3d 429, 441 (Mo.
App. W.D. 2013) (quoting Russell v. Russell,210
S.W.3d 191, 199 (Mo. banc 2007)). "If a judgment
awards costs or expressly refuses to award costs in a
manner that is inconsistent with the law, it is
axiomatic that the trial court has abused its
discretion." Riggs v. State Dep't of Social Servs., 473
S.W.3d 177, 182 (Mo. App. W.D. 2015).
There
are
two
separate
and
distinct
considerations when it comes to costs. Whether the
award was proper and whether the calculation and
taxation of costs was erroneous. Id. at 184. A party
may appeal the award of costs following the
judgment of the circuit court. Id. at 183‘84. A party
may not, however, challenge the itemized list of costs
until the circuit court clerk taxes statutory court
costs. Id. at 185. "[A] party's bill of costs 'is merely an
proposal.'" Id.
gratuitous
unsolicited
(quoting Montoya v. A J Mufflers, Inc., 331 S.W.3d
702, 704 (Mo. App. W.D. 2011)). As explained
by Riggs, "section 514.260 imposes the mandatory
duty on the circuit clerk, not the trial court, to tax
statutory court costs." Id. A "memorandum of costs
present[s] nothing for the trial court to decide
because the circuit clerk ha[s] not yet issued a bill of
costs. Until the circuit clerk taxes costs in [a] case, no

B- 9

party is in a position to file a Rule 77.05 motion
asking the trial court to retax costs." Id.
The Judgment contains no itemized bill of costs.
The itemized costs of which Suppes now complains
are contained in the University's "Bill of Costs" that
were submitted to the circuit court following its
Judgment. Just as with Riggs andMontoya, the costs
requested by the University are not appealable until
they are taxed by the circuit clerk. The only issue
ripe for appeal at this time is whether the circuit
court abused its discretion in imposing all costs on
Suppes.
Section 514.0605 states^ "In all civil actions, or
proceedings of any kind, the party prevailing shall
recover his costs against the other party, except in
those cases in which a different provision is made by
law." As noted by this Court in Riggs, "[s]ection
514.060 does not dictate an 'all or nothing' approach
to the recovery of costs. . . ." Riggs, 473 S.W.3d at
183. "The Legislature's intent was 'to provide for
judicial discretion in the apportionment of costs, both
when substantial issues are found against a party, as
well as when he fails on a cause of action pleaded by
him.'"A/, (quoting Schumacher v. Mehlberg, 70 S.W.
910, 911 (Mo. 1902)). Additionally, section 514.090
specifically states: "Where there are several counts
in any petition, and any one of them be adjudged
insufficient, or a verdict, or any issue joined thereon,
shall be found for the defendant, costs shall be
awarded at the discretion of the court."
In this case, the University prevailed on the
majority of its claims against Suppes but the jury
5 All statutory citations are to RSMo 2016 as currently
updated, unless otherwise noted.
B- 10

found in favor of Suppes on the University's claim for
tortious interference. Although the University did
not prevail on its claim for tortious interference, it
was successful in proving that Suppes had breached
not only his employment contract but violated his
duty of loyalty to the University resulting in
financial loss to the University and a protracted legal
battle. Suppes points to no case law that limits the
discretion of the circuit court to award costs solely
against one party even if that party was not
successful in all claims. Instead, under Missouri law
either party may be ordered to pay costs or they may
be apportioned among the parties. See In re Estate of
DePew, 511 S.W.3d 420, 430 (Mo. App. S.D. 2017).
Suppes presents no credible argument for how the
trial court abused its discretion in ordering Suppes to
pay all costs of the underlying action.
We disagree with Suppes's assertion that section
514.090 also sets up the ripeness for appeal of the
taxation of costs. It merely establishes the circuit
court has discretion in how to award costs. It does
not allow this Court to review a claim that has not
yet been finally determined. The question of whether
each specific cost set forth in the itemized bill of costs
as requested by the University is proper is not ripe
for appeal. As this Court fully discussed
in Riggs and Montoya, until the circuit clerk taxes
costs, there is nothing to appeal.
To the extent Suppes's second point on appeal
challenges the award of costs against Suppes, we find
that the circuit court did not abuse its discretion
ordering him to pay all of the costs. All other claims
raised by Suppes regarding the taxation of any one
specific cost is premature and not ripe for appeal,
thus they are dismissed.
B- 11

III.
Suppes's third point on appeal alleges that the
trial court erred in submitting the University's claim
of tortious interference with a business relationship
to the jury because the instruction did not properly
reflect the state of Missouri law. Specifically, Suppes
argues that, under Missouri law, a claim for tortious
interference requires a breach or a termination of a
business relationship. Suppes argues the elements of
this cause of action are laid out by MAI 23. II6 and
failure to follow the approved jury instruction
constituted reversible error. However, in order to
demonstrate prejudice, Suppes challenges not the
error in the jury instruction submitted for this claim
but rather that the claim should not have been
submitted to the jury in the first place, a distinct and
separate allegation of error.7
"When reviewing claims of instructional error, we
will reverse a jury verdict on the ground of
instructional error if the error resulted in prejudice
that 'materially affected the merits of the
6 All references are to Missouri Approved Jury Instruction as
currently updated.
7 The University contends that Suppes's third point on appeal is
multifarious and, as such, preserves nothing for appeal. See
Ivie v. Smith, 439 S.W.3d 189, 199 n.ll (Mo. banc 2014); Rule
84.04. Violation of Rule 84.04 is sufficient grounds for
dismissing an appeal. Robin Farms, Inc. v. Bartholome, 989
S.W.2d 238, 245 (Mo. App. W.D. 1999). In fact, the University
correctly notes that all of Suppes's remaining points on appeal
are multifarious and, as such, preserve nothing for appeal.
However, because we prefer to decide cases on the merits where
appellant's argument is readily understandable, we have
elected to exercise our discretion to review the merits of the
arguments set forth in the point relied on to the extent
discernable.
B- 12

action.'" Savage v. Kansas City Power & Light
Co., 515 S.W.3d 778, 783 (Mo. App. W.D. 2017)
(quoting Coomer v. Kansas City Royals Baseball
Corp., 437 S.W.3d 184, 191 (Mo. banc 2014)). As the
University notes, Suppes was successful on the claim
of tortious interference and thus there is no prejudice
because no damages were awarded on this claim. See
generally; Benedict v. N. Pipeline Constr., 44 S.W.3d
410, 428 (Mo. App. W.D. 2001).
Suppes attempts to circumvent this wellestablished legal principle by arguing he was
prejudiced because based on the submission of this
claim the University was allowed to present evidence
of its request for 3.7 million dollars in damages for
the tortious interference claim and this improperly
prejudiced the jury against him in the calculation of
damages for his other claims. Suppes's argument is
incorrect. The evidence regarding the 3.7 million
dollar calculation of damages was presented by the
University in regard to all of its claims, regardless of
the submission of the tortious interference claim. The
evidence was testified to by the University's expert
Adam Falconer ("Falconer"), a patent valuation
expert, who presented his calculation of damages to
the jury during the University's case. The jury heard
his opinion regarding the calculation of damages as
to all claims and it was not limited to the tortious
interference claim. Falconer's testimony supported
damages for all claims raised. Suppes argues that
had the tortious interference claim not been
submitted, he would have been able to argue in his
closing argument that the damages testimony was
irrelevant. This is not correct, the testimony still
would have been relevant as to the other claims
brought by the University.
B- 13

Additionally, Suppes's argument on this point is
circular. He does not argue that there was
insufficient evidence to submit this claim to the jury,
only that the way it was submitted to the jury was
not proper. He then attempts to bootstrap an
argument that because it was not properly
instructed that it never should have been submitted
and therefore the jury would have never heard the
evidence as to the damages regarding this count.
While we disagree with Suppes's argument that the
instruction on this claim was improper, the relief he
would be entitled to had this claim been improperly
instructed would have been a retrial on this claim
not an order that the claim could not be submitted to
the jury.
Assuming arguendo that Suppes intended to
challenge the submission of this claim as well, the
only substantive argument raised as to the
submissibility of the tortious interference claim
comes in Suppes's reply brief. In his reply brief,
Suppes argues that the claim was improper because
there was no evidence that the University had a
business relationship with either Senergy or SK
Chemicals, or that the University's relationship with
Missouri Soybean ended or was diminished as a
result of the failed PG venture. This argument
misconstrues the jury instructions. Jury Instruction
No. 12 states that Suppes's actions interfered with
the University and Missouri Soybean's plans to
commercialize PG with Senergy. There was sufficient
evidence presented at trial that the University
licensed PG to Missouri Soybean who, in turn, leased
the rights to Senergy. There was clearly a business
relationship between the University and Senergy
through Missouri Soybean. There was also sufficient
B- 14

evidence that Suppes failed to sign documents
necessary to implement or maintain the patent for
the PG technologies. Also, the jury heard testimony
from Senergy that he contacted competitors of
Senergy regarding proprietary information. Suppes
presents no argument challenging the University's
connection to Suppes's alleged tortious behavior.
Further, as noted above, even if the court erred in
submitting the claim for tortious interference to the
jury, there was no prejudice because Suppes was
ultimately successful in his claim. To the extent the
allegation of prejudice rests on the jury hearing a
damages claim for 3.7 million dollars, that testimony
was already properly before the jury. As noted above,
there is no basis for Suppes's argument that, absent
submission of the tortious interference claim he
would have been able to argue that Falconer's
testimony regarding these damages was irrelevant to
the remaining claims. See Trimble, 167 S.W.3d at
711 (Plaintiff could present multiple theories of
recovery so long as they were not factually
inconsistent, but instead merely included damages
that could be overlapped.)8
The University proffered sufficient facts to submit
a claim of tortious interference to the jury. Because
Suppes sole claim of prejudice is due to the
submission of tortious interference claim to the jury
and not the language of Instruction No. 12, he has no
valid argument that he was prejudiced. Suppes was
successful on the underlying claim. To the extent the
jury heard evidence of the damages regarding
8 A plaintiff is only entitled to be whole once, even on separate
theories of recovery. Trimble, 167 S.W.3d at 711. However,
Suppes raises no argument that the University recovered more
than the damages it incurred...........
B- 15

tortious interference, it was a request properly before
the jury, regardless of the language of the
instructions. Point Relied on III is denied.
IV.
Suppes's fourth point on appeal alleges that the
circuit court erred in overruling his Motion for
Judgment Notwithstanding the Verdict and A New
Trial, or in the Alternative for Remittitur ("PostJudgment Motion") as to the University's breach of
contract claim because the University failed to prove
damages with reasonable certainty.
"The standard for reviewing a denied motion for
JNOV is essentially the same as for reviewing the
denial of a motion for directed verdict." Hammett
v. Atcheson, 438 S.W.3d 452, 458 (Mo. App. W.D.
2014). "[Gjranting a motion for JNOV is a drastic
action and should only be granted when reasonable
persons could not differ on the correct disposition of
the case." Id. "We are 'only obliged to determine
whether there was evidence from which such verdict
could have been reached by a jury composed of
at
459
reasonable
men
and
women.'" Id.
Partners,
Inc.
v.
Siemens
(quoting Envtl. Energy
Bldg. Techs., Inc., 178 S.W.3d 691, 698 (Mo. App.
S.D. 2005)). "We 'will reverse the jury's verdict for
insufficient evidence only where there is a complete
absence of probative facts to support the jury's
conclusion.'" Id. (quotingPeel v. Credit Acceptance
Corp., 408 S.W.3d 191, 204 (Mo. App. W.D. 2013)).
"To recover lost profits stemming from a breach of
contract, a plaintiff need only prove the fact of
damages with reasonable certainty and provide an
adequate basis for the jury to estimate the lost
profits with reasonable certainty." Midwest Coal,LLC
ex rel. Stanton v. Cabanas, 378 S.W.3d 367, 371 (Mo.
B- 16

Jet
(citin gAm eristar
E.D.
2012)
App.
Charter, Inc. v. Dodson Inti Parts, Inc., 155 S.W.3d
50, 54-55 (Mo. banc 2005)). '"[Cjertainty' means that
damages have been suffered and not exact proof of
the amount of the damages. Where the fact of
damage is clear, it is reasonable to require a lesser
degree of certainty as to the amount of loss, leaving a
greater degree of discretion to the jury, subject to
the usual supervisory power of the court." Harvey
v. Timber Ress., Inc., 37 S.W.3d 814, 819-20 (Mo.
App. E.D. 2001) (internal citations omitted).
Suppes provides no substantive argument
supporting his theory that there was inadequate
proof of damages in the breach of contract claim.
Instead, Suppes cites to several cases that hold, once
the fact of damages has been established, courts
require a lesser degree of certainty as to the amount
of damages, leaving the jury to exercise a greater
Penzel
discretion. See
of
degree
Constr. Co. v. Jackson R-2 Sch. Dist.,544 S.W.3d 214,
236 (Mo. App. E.D. 2017); BMK Corp. v. Clayton
Corp., 226 S.W.3d 179, 196 (Mo. App. E.D. 2007).
Then Suppes proceeds to argue not that there was
insufficient evidence to support a claim for damages
but instead argues that, even if there was sufficient
evidence the circuit court should have used its
discretion to exercise remittitur because the amount
of damages was excessive. These are two separate
arguments and we address each in turn.
A. Evidence of Damages
The burden of proving that damages exist, and
the amount of those damages, rests with the party
contract. Ullrich
of
breach
claiming
v. CADCO, Inc., 244 S.W.3d 772, 779 (Mo. App. E.D.
2008). "A plaintiff claiming a breach of contract has
B- 17

available and need not choose between three types of
damages'-actual, consequential, and benefit'of-thebargain--as such damages are not necessarily
inconsistent with one another,' a plaintiff may not,
however, be made whole more than once." Catroppa
v.Metal Bldg. Supply, Inc., 267 S.W.3d 812, 817 (Mo.
App. S.D. 2008).
"Actual damages are compensatory and are
measured by the loss or injury sustained" as a
direct result of the wrongful act. Stiffelman
v. Abrams, 655 S.W.2d 522, 531 (Mo. banc
1983). Consequential damages "are those
damages naturally and proximately caused by
the commission of the breach and those
damages that reasonably could have been
contemplated by the defendant at the time of
the parties' agreement." Ullrich, 244 S.W.3d at
779. Finally, benefit'of'the-bargain damages,
also called lost profits damages, are the "net
profits a plaintiff would have realized" had the
contract not been breached. Ameristar Jet
Charter, Inc. v. Dodson Inti Parts, Inc., 155
S.W.3d 50, 54 (Mo. banc 2005). There are
situations in which all three types of damages
could be deemed appropriate by a finder of
fact, but that is not always the case. See
Davis, 143 S.W.3d at 670.
Catroppa, 267 S.W.3d at 818. The jury verdicts did
not distinguish the type of damages awarded, nor did
the parties request that such a distinction be made.
Thus, we accept the damages award if there is
substantial evidence in the record supporting any of
the three types of allowable damages. See Id.
At trial, the University proved damages through
the general testimony of University personnel who
B- 18

spent countless hours trying to unravel the questions
surrounding ownership of the PG technology.
Additionally, the University relied on the testimony
of Falconer regarding the valuation of the value of
PG to the University, had there not been an issue
surrounding the ownership of the technology. The
University contends that because Suppes did not
timely and properly assign his patents to the
University, it lost a great deal of profits and revenue
that would have stemmed from the licensing of that
technology. "For an award of lost profits damages, a
party must produce evidence that provides an
adequate basis for estimating the lost profits with
Jet
certainty." Ameristar
reasonable
Charter, Inc., 155 S.W.3d at 54. As noted by the
Supreme Court in AmeristarIn some cases, the evidence weighed in
common experience demonstrates that a
substantial pecuniary loss has occurred, but at
the same time it is apparent that the loss is of
a character which defies exact proof. In that
situation, it is reasonable to require a lesser
degree of certainty as to the amount of loss,
leaving a greater degree of discretion to the
court or jury. This principle is applicable in
the case of proof of lost profits.
Id. at 55 (quoting Ranch Hand Foods, Inc. v. Polar
Pak Foods, Inc., 690 S.W.2d 437, 444_45 (Mo. App.
W.D. 1985)). The testimony of Falconer was that
there are fairly developed best practice guidelines for
valuing IP technology. Falconer used these
methodologies and used the minimum production
volumes estimated by the entities involved together
with the specific royalty to be paid to the University
had PG gone into commercial production as expected.
B- 19

Suppes argues that there was no evidence
showing that any lost profits resulted in or caused
any damages to the University. This ignores the
clear testimony of Falconer that the University was
entitled to royalties on any production of PG and
provided estimates as to those amounts.
B. Excessive Damages
The above discussion also demonstrates that the
circuit court did not err in denying Suppes's request
for remittitur. The University adduced competent
evidence that it sustained damages of 3.7 million
dollars. The jury awarded substantially less than the
sum requested but evidence was before the jury from
which it could have awarded substantially higher
damages. Suppes appears to contend that because
the evidence of damages was also used to support the
University's claim of tortious interference, a claim
upon which it lost, it could not also be used as
evidence to support damages for breach of contract.
We disagree. As discussed supra in Suppes's third
point, damage calculations may be used to support
multiple theories of recovery. See Trimble, 167
S.W.3d at 711. A plaintiff may not recover the same
damages under multiple claims! a plaintiff may only
be made whole once. Catroppa, 267 S.W.3d at 817.
But, there is no overlapping recovery here, nor has
Suppes raised any such claim of error. Other than
claiming insufficient evidence of damages, Suppes
provides no bases for remittitur. Based on the
evidence of substantial damages presented by the
University, the circuit court did not abuse its
discretion in denying Suppes's request for remittitur.
In his Reply Brief, Suppes appears to argue for
the first time that there was insufficient evidence to
support damages because "all seven (7) PG patents
B- 20

that issued listed [University] as assignee." Suppes
appears to argue that because he may have
eventually assigned the PG patents to the University
there could be no damages for his breach of contract.
We disagree. As noted above, the University
presented sufficient competent evidence that the
University suffered damages from Suppes not timely
fulfilling his contractual obligations to the University
because such actions hindered the commercialization
of PG. The jury was not required to find that the
University suffered no damages simply because after
breaching his contract Suppes later assigned some
PG patents.
Point IV is denied.
V.
Suppes's fifth point on appeal alleges that the
circuit court erred in overruling his Post-Judgment
Motion as to the University's breach of duty of
loyalty and breach of contract claims because the
court allowed the submission of jury instructions
nine and fifteen which improperly held Suppes liable
for the actions of RA.
Jury Instruction No. 9 read:
Your verdict must be for plaintiff if you
believe
First,
defendant
used
Renewable
Alternatives ("RA") to represent to Missouri
Soybean that RA held sole title, right, and
interest to the propylene glycol technology to
the exclusion of plaintiff and to license those
rights to Missouri Soybean; and.
Second, because of this representation and
license, defendant's contract obligations were
not performed, and.

B- 21

Third, plaintiff was thereby damaged.
Jury Instruction No. 12 read:
Your verdict must be for plaintiff if you
believe:
First, a business relationship existed
between the plaintiff and Missouri Soybean to
commercialize propylene glycol with Senergy
Chemical Corporation ("Senergy"); and
Second, defendant was aware of the
relationship between plaintiff and Missouri
Soybean to commercialize propylene glycol
with Senergy, and
Third, defendant interfered with the
business relationship between plaintiff and
Missouri Soybean to commercialize propylene
glycol by refusing to sign a document needed
to prevent abandonment of a patent
application, or by talking to competitors of
Senergy
about
proprietary
intellectual
property, and,
Fourth, defendant did so intentionally and
without justification or excuse, and
Fifth, plaintiff was thereby damaged.
Suppes alleges that in order to hold him liable for
"using" RA to act, the University was required to
"pierce the corporate veil." Piercing the corporate veil
is used "[w]here a corporation [or an LLC] is used for
an improper purpose and to perpetuate injustice by
which it avoids its legal obligations, equity will step
in, pierce the corporate veil and grant appropriate
relief." Hammett, 438 S.W.3d at 461. The only time
that it is necessary to pierce the corporate veil is to
hold an otherwise unrelated actor liable for the
actions of another. In this case, the University
B- 22

brought their claim directly against Suppes for
Suppes's actions in violation of his own employment
contract and in violation of his own duty of loyalty.
There was no need to pierce the corporate veil
because the University is not seeking to hold RA
legally responsible for the actions of Suppes or
requesting that RA be charged with payment of any
of the damages. Instead, Suppes was the responsible
party, the party contracting with and owing a duty to
the University and the party against whom the
University was seeking recovery of damages. The
University made a direct claim against Suppes and is
seeking to recover damages from Suppes.
We decline to address Suppes's allegation in his
argument under this point that the University failed
to present sufficient evidence of damages to support
either claim because that claim of error was not
properly raised in this point relied on. Holliday
In vs., Inc. v. Hawthorn Bank, 476 S.W.3d 291,
297 n.5 (Mo. App. W.D. 2015) ("Claims of error raised
in the argument portion of a brief that are not raised
in the point relied on are not preserved for our
review.")
Additionally,
such
allegations
are
adequately addressed in Suppes's other points on
appeal.
We find the allegations raised by Suppes in his
Point Relied on V to be without merit. Point Relied
on V is denied.
VI.
Suppes's sixth point on appeal alleges that the
circuit court erred in denying Suppes's PostJudgment Motion as to the University's breach of
loyalty claim because the University failed to make a
submissible case that Suppes was the alter ego of
RA.
B- 23

This argument suffers from the same deficiency
as Suppes's argument regarding his fifth point on
appeal. The University brought a claim directly
against Suppes for his breach of his duty of loyalty to
the University. The University was not required to
show that Suppes was the alter ego of RA to make a
submissible claim. Under Missouri law, alter ego
liability is a "separate and distinct cause of action"
that allows a court to hold a business entity's owners
personally liable for the entity's obligations. Saidawi
v. Giovanni's Little Place, Inc., 987 S.W.2d 501,
504 (Mo. App. E.D. 1999). The University did not
raise a claim of alter ego liability; nor did the
University seek to hold Suppes liable for RA's
obligations or RA liable for Suppes's obligations. The
University brought a breach of loyalty claim directly
against Suppes for Suppes's own actions, and sought
damages against Suppes. Thus, the circuit court did
not err in overruling Suppes's Post'Judgment Motion
for the reasons raised in Point Relied on VI. Point
Relied on VI denied.
VII.
Suppes's seventh point on appeal alleges that the
circuit court erred in overruling Suppes's PostJudgment Motion by allowing the submission of jury
Instruction No. 9 because it required the jury to
"determine that [Suppes] breached a contractual
obligation to [the University] based on an agreement
between two legal entities who were not or were no
longer parties to the lawsuit and there was a
complete lack of probative evidence that these
parties had any contractual obligation to [the
University] that could have been breached by
[Suppes]."

B- 24

As noted above in Point Relied on V, the language
of the instruction only refers to the actions of Suppes
violating his duty to the University. It asks the jury
to determine whether Suppes used RA to exclude the
University from exercising its interests in PG. It is
immaterial that RA was not a party to the suit. So
too is it irrelevant as to whether RA or Missouri
Soybean had a contractual obligation to the
University. The jury instruction directly addresses
whether Suppes breached his contractual obligations
to the University and whether the University
thereby suffered damages.
To the extent that Suppes seeks to argue that
there was insufficient evidence to show that Suppes
breached his contractual duties to the University,
this claim is without merit. The University presented
evidence that Suppes was employed by the
University and, as a condition of his employment,
had agreed to notify the University as to all his
inventions and assign them upon request. The
University presented evidence that Suppes instead
assigned the PG technology to RA in breach of
Suppes's contractual obligations to the University.
As stated in Instruction No. 9, Suppes used RA to
represent to Missouri Soybean that RA held the sole
interests to the PG technology which was a breach of
Suppes's contract with the University.
"The trial court has discretion when determining
whether jury instructions are confusing or
misleading." Portis v. Greenhaw, 38 S.W.3d 436,
445 (Mo. App. W.D. 2001). The trial court’s ruling on
such an objection will not be disturbed absent a
showing that the court abused its discretion. Id. We
find that the circuit court did not abuse its
discretion in finding that Instruction No. 9 was clear
B- 25

and was supported by sufficient evidence of the
claims presented to the jury.
We find Suppes's alleged challenges to the jury
instruction misread its plain terms and thus such
challenges are without merit.
Suppes's seventh point on appeal is denied.
VIII.
Suppes's eighth point again challenges jury
Instruction No. 9 and Instruction No. 15. Suppes
alleges that the circuit court erred in overruling his
Post-Judgment Motion because "it sought to impose
tort liability based on a contractual obligation, which
was misleading and confusing to the jury in that both
Instructions No. 9 and 15 were predicated on the
license agreement between RA and Missouri
Soybean, neither a party to the lawsuit, which
permitted the jury to make double awards for the
same damages."
It appears that Suppes seeks to raise three
distinct issues in this point on appeal. First, Suppes
alleges that the claims should not have been
submitted to the jury because RA and Missouri
Soybean were not parties to the suit. This issue was
addressed fully in the proceeding points not to be
repeated here and is without merit.
Second, the Point Relied On argues that the court
erred in its instructions to the jury because
Instruction No. 9 and Instruction No. 15 were
confusing. This issue was fully addressed above as to
Instruction No. 9. The same discussion is applicable
to Instruction No. 15. Suppes fundamentally
misunderstands Instruction No. 15. Instruction No.
15 holds Suppes liable for breaching his duty of
loyalty to the University. It does not, as Suppes

B- 26

seems to suggest, hold RA or Missouri Soybean
liable. Nor does it otherwise matter that RA and
Missouri Soybean were not parties to the cause of
action. The trial court did not abuse its discretion in
finding that Instruction No. 15 was not confusing or
misleading to the jury. Portis, 38 S.W.3d at 446.
Finally, Point Relied on VIII alleges that
Instruction No. 9 and Instruction No. 15 allowed for
the duplication of damages because they present
inconsistent theories of recovery. As the University
accurately points out, this issue was not preserved
for appeal as this objection was never raised before
the trial court. However, even if it were preserved,
the circuit court did not err in its instructions
because no inconsistent theories of recovery were
permitted. Instruction No. 9 instructs regarding
Suppes's breach of his contract with the University;
Instruction No. 15 instructs regarding to Suppes's
breach of his duty of loyalty to the University. A
single transaction may give rise to two separate
wrongs such that there are "distinct claims that may
satisfaction
to
pursued
be
consecutively." Trimble, 167 S.W.3d at 711.
Suppes appears to argue that his breach of his
duty of loyalty was not a separate wrong from his
breach of contract. In Missouri, an emploj^ee owes a
duty of loyalty to his employer that "[h]e must not,
while employed, act contrary to the employer's
interests and, in general terms, owes a duty of
loyalty as one of the incidents of the employerrelationship." Natl
employee
Rejectors, Inc. v. Trieman, 409 S.W.2d 1, 4l(Mo. banc
Express
Freight
1966); Scanwell
STL, Inc. v. Chan, 162 S.W.3d 477, 479(Mo. banc
2005). This duty is separate and distinct from the
B- 27

employment contract that Suppes had with the
University. Under Instruction No. 9, the jury was
asked to decide whether Suppes had violated the
terms of his employment contract, which required
the assignment of all inventions, by using RA to
misrepresent to Missouri Soybean that RA and not
the University owned the rights to PG. This was a
breach of his employment contract. Separate and
distinct, Instruction No. 15 asked the jury to consider
whether Suppes had breached the general duty of
loyalty that an employee owes to an employer by
acting in direct competition with the University to
attempt to profit from and produce PG to the
detriment of the University. They were two separate
wrongs performed by Suppes and the circuit court
did not err in allowing the University to recover
damages for each wrong. As Suppes himself notes:
"[tjheories are inconsistent and require an election
only if, in all circumstances, one theory factually
disproves the other." Trimble, 167 S.W.3d at 711.
Instruction No. 9 and Instruction No. 15 do not
disprove each other.
Suppes's eighth point on appeal is denied.
IX.
Suppes's ninth and final point on appeal alleges
that the circuit court erred in denying Suppes's PostJudgment Motion because the Judgment included
redundant judgments. This issue was not preserved
for appeal so it can only be reviewed for plain error.
"We only will review a claim for plain error if it
'facially establishes substantial grounds for believing
that a 'manifest injustice or a miscarriage of justice'
if
left
uncorrected.'" Coats
result
would
v. Hickman, 11 S.W.3d 798, 805 (Mo. App. W.D.
1999) (quoting Brown v. Mercantile Bank, 820
B- 28

S.W.2d 327, 335 (Mo. App. S.D. 1991)). "As a
practical matter, we rarely resort to plain error
review in civil cases." Id.
Although it is not clear from his Opening Brief, in
his Reply Brief, Suppes identifies that his claim
regarding redundant damages stems from jury
Instruction No. 7 and Instruction No. 8. These
instructions both apply to the same breach of
contract claim. The jury was allowed to consider
multiple ways in which Suppes violated his contract
with the University in determining damages. Jury
Instruction No. 10 directed the jury to: "award [the
University] such sum as you believe will fairly and
justly compensate [the University] for any damages
you believe [the University] sustained as a direct
result of the conduct of defendant as summited
Instructions Numbers 7, 8, or 9." To the extent that
Suppes is relying on a "single source of damages"
argument as to the claim for breach of contract it is
immaterial because the jury was instructed to
determine one amount of damages for the entire
breach of contract claim. The Reply Brief goes on to
clarify that the argument is that there is a "complete
absence of evidence justifying the jury award of
$300,000" in damages which was fully addressed in
the points relied on above.
Suppes's ninth point on appeal is without merit
and is denied.
Conclusion
For the reasons stated above, we affirm the
Judgment.
Is/
Gary D. Witt, Judge
All concur

B- 29

APPENDIX C - DENIAL FOR TRANSFER
Supreme Court of Missouri
en banc
SC97734
WD81278
January Session, 2019
The Curators of the University
of Missouri,
Respondent,
vs. (TRANSFER)
Galen J. Suppes
Appellant.
Now at this day, on consideration of the
Appellant's application to transfer the above-entitled
cause from the Missouri Court of Appeals, Western
District, it is ordered that the said application be,
and the same is hereby denied.
STATE OF MISSOURI-Sct.
I, Betsy AuBachon, Clerk of the supreme Court of
the State of Missouri, certify that the foregoing is a
full, true and complete transcript of the judgment of
said Supreme Court, entered of record at the
January Session, 2019, and on the 30th day of April,
2019, in the above-titled cause.

C- 1

IN TESITMONY WHEREOF, I have
hereunto set my hand and the seal of
said Court, at my office in the City of
Jefferson, this 30th day of April, 2019.
., Clerk
., Deputy Clerk

C-2

